CERTIFICATE OF SERVICE
No. 20-7028
Amos Mast, Menno Mast, Sam Miller, and Ammon Swartzentruber,
Petitioners,
vs.
County of Fillmore and Minnesota Pollution Control Agency,
Respondents.
I, Christina Brown, a member of the Bar of the Supreme Court of Minnesota,
pursuant to Supreme Court Rule 29.5(c) and 28 U.S.C. § 1746, do hereby certify that on
April 14, 2021, I caused an electronic copy of Brief in Opposition and Appendix of
Respondent Minnesota Pollution Control Agency in the foregoing case to be served by
email on the following parties:
BRIAN NELSON LIPFORD
Southern Minnesota Regional Legal Services
903 West Center Street
Suite 230
Rochester, MN 55902
(507) 292-0080
brian.lipford@smrls.org
Counsel for Petitioners

BRETT CORSON
Fillmore County Attorney
101 Fillmore Street
P.O. Box 307
Preston, MN 55965
(507) 765-2530
bcorson@co.fillmore.mn.us
Counsel for Respondent Fillmore County

GORDON D. TODD
Sidley Austin LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
gtodd@sidley.com
Counsel for Amici Curiae

All parties listed above waived paper service pursuant to this Court’s order
dated April 15, 2020, and “Guidance Concerning Clerk’s Office Operations” dated
November 13, 2020.

